COMMONWEALTH OF PENNSYLVANIA

OFFICE OF ATTORNEY GENERAL
JOSH SHAPIRO
ATTORNEY GENERAL

July 7, 2020
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
Direct: 717-712-3818
Fax: 717-772-4526
jdelone@attorneygeneral.gov

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, Northeast
Washington, D.C., 20543
RE:

Friends of Danny DeVito, et al., v. Tom Wolf, Governor of Pa., et al.
No. 19-1265

Dear Mr. Harris:
I represent Respondents Governor Tom Wolf and Secretary Rachel Levine in the above
captioned case. Respondents’ brief in opposition to the petition for writ of certiorari is currently
due July 22, 2020. I respectfully request a 30-day extension of time, to and including August 21,
2020, in which to file our brief.
Pursuant to the Court’s March 19, 2020 Order, “motions for extensions of time pursuant to
Rule 30.4 will ordinarily be granted by the Clerk as a matter of course if the grounds for the
application are difficulties relating to COVID-19 and if the length of the extension requested is
reasonable under the circumstances.” The physical offices of the Pennsylvania Office of Attorney
General have been closed due to the global COVID-19 pandemic since March 2020. As evidenced
by this case, this section consists of a small cadre of attorneys with specialized knowledge. This
section has been, and continues to, defend against numerous attacks on the Governor’s authority
to respond to the current public health care emergency. Briefing schedules in these emergency
cases have been extremely abbreviated. And we have had to litigate these cases from our respective
home offices, which encumbers collaboration and our ability to prepare the booklets for mailing.
A 30-day extension will ensure that we have sufficient time to fully research and prepare
a brief responding to the many issues raised in the petition for writ of certiorari and supplemental
brief. Counsel for Petitioner concurs in this motion.
Respectfully,
s/ J. Bart DeLone
J. BART DELONE
Chief Deputy Attorney General
cc: All counsel of record

